$

IN THE

COURT OF APPEALS OF INDIANA
Clinton Riley,
Appellant,
Court of Appeals Cause No.
19A-MI-1273

v.

Indiana Department of
Corrections, et al.,
Appellees.

FILED
Dec 26 2019, 11:30 am

CLERK

Indiana Supreme Court
Court of Appeals
and Tax Court

Order
[1]

Appellees, by counsel, have filed a Verified Motion to Dismiss or in the
Alternative to Remand. Appellant, pro se, has filed a Verified Reply and
Motion to Deny Motion to Dismiss or in the Alternative to Remand.

[2]

Having reviewed the matter, the Court finds and orders as follows:
1. Appellees’ Verified Motion to Dismiss is granted and this appeal is
dismissed with prejudice.
2. The Clerk of this Court is directed to send this order to the parties, the
trial court, and the Henry Circuit Courts Clerk.
3. The Henry Circuit Courts Clerk is directed to file a copy of this order
under Cause Number 33C02-1812-MI-228 and, pursuant to Indiana Trial
Rule 77(D), the Clerk shall place the contents of this order in the Record
of Judgments and Orders.

[3]

Ordered

12/26/2019

Bradford, J., Barteau, Darden, Sr.JJ., concur.
For the Court,
fiarrii y&CtlJc,

Chief Judge

Page 1 of 1

Al

>

3fn tlje

Snbtana Supreme Court
Clinton Riley,
Appellant(s),

Court of Appeals Case No.
19A-MI-01273
Trial Court Case No.
33C02-1812-MI-22 8

v.
Indiana Department Of Correction; Keith
Butts,
Appellee(s).

FILED
Jun 23 2020, 3:25 pm

CLERK

Indiana Supreme Court
. Court of Appeals ,
^ and Tax Court ^

Order
This matter has come before the Indiana Supreme Court on a petition to transfer
jurisdiction, filed pursuant to Indiana Appellate Rules 56(B) and 57, following the issuance of a
decision by the Court of Appeals. The Court has reviewed the decision of the Court of Appeals,
and the submitted record on appeal, all briefs filed in the Court of Appeals, and all materials
filed in connection with the request to transfer jurisdiction have been made available to the
Court for review. Each participating member has had the opportunity to voice that Justice’s
views on the case in conference with the other Justices, and each participating member of the
Court has voted on the petition.
Being duly advised, the Court DENIES the petition to transfer.
Done at Indianapolis, Indiana, on 6/23/2020

a—*>

Loretta H. Rush
Chief Justice of Indiana
All Justices concur.

ni>h li t

CLERK
SUP'R£ME: .COURT,. COURT OF APPEALS',. AMD l^X/CGUST

STATE OF INDIANA
Stii Steals. Howt^IifiiAmMCiSvIM j-eMMh
$ i?-2»^i93{) wm m 7^$2~$0&5

Clinton Riley
D0C#111204
New Castle Correctional Facility
PO Box A
New Castle, IN 47362

CAUSE NO.: 19A-MI-01273
LOWER COURT CAUSE NO.: 33C021812MI228
IN RE: Clinton Riley v. Indiana Department of Corrections, et al.
You are hereby notified that the Indiana Supreme Court has on this day, Tuesday, June 23,
2020, issued the attached order, opinion, or notice.
Transmitted pursuant to the requirements of Indiana Appellate Rule 26.
Clerk of the Indiana Supreme Court, Court of Appeals, and Tax Court
Statehouse Rm. 216
200 W. Washington St.
Indianapolis, IN 46204

INDIANA

SUPREME COURT

200 W Washington St | Rm 216
Indianapolis, Indiana 46204

Office of judicial Administration

COURTSJHCGV

Via U.S. First Class Mail
August 11, 2020

Clinton Riley
P. O. Box A
New Castle IN 47362
Re:

Petition for Rehearing
19A-MI-1273

Dear Mr. Riley:
This office received on 07/22/2020 your Petition for Rehearing referencing the above-mentioned case. A Party may not
seek rehearing of an order denying transfer, see Appellate Rule 54 (A). Please see the following entry copied from the
docket:
06.03/2020

08/05/2020

08/05/2020

"H Order Denying Petition to Transfer (Judicial Officer; Rusk Loretta H.)
File Stamp: 06/23/2020
Party; Appellant Riley, Clinton
Serve: Deputy'Attorney General FHL Curtis Theophitas; Trial Court Staff Crane, Kit C. Dean; Deputy Attorney General Jones,
Benjamin Myron Lane; Deputy Attorney General Craft, Aaron Thomas; Trial CoiHt Staff Trial Clerk 33 - Henry; Appellant Riley,
Clinton; Appellate Court Staff Court of Appeals Administrator
Appellant's petition to transfer denied. All Justices concur.
@ Rec eived Document
PostmarkDate: 07/22/2020
Receive Date: 07/27/2020 Petitionfor Rehearing * * appears untimely**
Note
Rec-Petitionfor rehearing**A party may not seek rehearing ofan order denying transfer**

For more information, please refer to the Indiana Rules of Appellate Procedure.

Sincerely,

Gregory Pachmayr
Clerk of Courts
wo

GREGORY R. PACHMAYR, CLERK OF THE INDIANA APPELLATE COURTS
Clerk of the Appellate Courts | clerk@courts.IN.gov | 317.232.1930

CLERK
-SUPREME COURT, COURT OF APPEALS, AND TAX.;'COURT

STATE OF INDIANA
f IS S'lAj'E House, Indianapolis, I'M 4620F
3 n-s3-s-i 930 fax: $ i

Clinton Riley
DOC#l 11204
New Castle Correctional Facility
PO Box A
New Castle, IN 47362

CAUSE NO.: 19A-MI-01273
LOWER COURT CAUSE NO.: 33C021812MI228
IN RE: Clinton Riley v. Indiana Department of Correction, et al.
You are hereby notified that the Indiana Court of Appeals has on this day, Tuesday, August 11,
2020, issued the attached order, opinion, or notice.
Transmitted pursuant to the requirements of Indiana Appellate Rule 26.
Clerk of the Indiana Supreme Court, Court of Appeals, and Tax Court
Statehouse Rm. 216
200 W. Washington St.
Indianapolis, IN 46204

Aipf c '

Additional material
from this filing is
available in the
Clerk's Office.

